No. 19-123

In the Supreme Court of the United
States
SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, ET AL.,
Respondents.
On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
BRIEF OF AMICUS CURIAE LAWRENCE G.
SAGER SUPPORTING RESPONDENTS
LAWRENCE G. SAGER
ALICE JANE DRYSDALE
SHEFFIELD REGENTS
CHAIR
UNIVERSITY OF TEXAS
SCHOOL OF LAW
727 E. Dean Keeton Street
Austin, Texas 78705

CHARLES A. ROTHFELD

Counsel of Record
DANIEL D. QUEEN
C. MITCHELL HENDY
KATHLEEN S. MESSINGER
MAYER BROWN LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
crothfeld@mayerbrown.com

Counsel for Amicus Curiae Lawrence G. Sager

i
TABLE OF CONTENTS
Page(s)
TABLE OF AUTHORITIES..................................... iii
INTEREST OF AMICUS CURIAE ........................... 1
SUMMARY OF ARGUMENT .................................... 2
ARGUMENT .............................................................. 5
I.

II.

IF THE CITY DID ITS OWN VETTING
OF FOSTER CARE FAMILIES, THE
EQUAL PROTECTION CLAUSE
WOULD REQUIRE THAT SAME-SEX
COUPLES BE GIVEN FULL, OPEN,
AND EQUAL ACCESS AS FOSTER
CARE FAMILY APPLICANTS. ...................... 6
A.

Same-sex couples and LGBTQ
children are constitutionally
entitled to equal treatment, free
of disadvantage or stigma..................... 6

B.

If the City chose to do its own
foster care placement, any
arrangement that targeted and
disadvantaged same-sex couples
plainly would be
unconstitutional. ................................... 8

PHILADELPHIA MAY NOT PERMIT A
PRIVATE AGENCY ACTING ON ITS
BEHALF TO DISCRIMINATE IN
ASSISTING THE CITY WITH FOSTER
CARE SERVICES. ......................................... 11

ii
A.

Providing for the care of children
who are vulnerable to abuse or
neglect is a critical governmental
responsibility of the
Commonwealth of Pennsylvania
and the City of Philadelphia............... 11

B.

When the City delegates part of
its foster care process to private
agencies, it retains full
constitutional responsibility for
that process. ........................................ 13

C.

The harms to same-sex couples
and LGBTQ children that would
follow from granting CSS and
other providers license to
discriminate are precisely those
against which the Equal
Protection Clause is directed. ............. 16

CONCLUSION ......................................................... 21

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Ancata v. Prison Health Servs., Inc.,
769 F.2d 700 (11th Cir. 1985) .............................. 15
Bob Jones University v. United States,
461 U.S. 574 (1983) .......................................... 9, 10
Buck v. Gordon,
959 F.3d 219 (6th Cir. 2020) ................................ 19
Dumont v. Lyon,
341 F. Supp. 3d 706 (E.D. Mich.
2018) ............................................................... 19, 20
Ermold v. Davis,
936 F.3d 429 (6th Cir. 2019) ................................ 10
Fulton v. City of Philadelphia,
320 F. Supp. 3d 661 (E.D. Pa. 2018) ..................... 1
King v. Kramer,
680 F.3d 1013 (7th Cir. 2012) .............................. 14
Lawrence v. Texas,
539 U.S. 558 (2003) ............................................ 5, 6
Loving v. Virginia,
388 U.S. 1 (1967) .................................................... 9
Marouf v. Azar,
391 F. Supp. 3d 23 (D.D.C. 2019) .................. 14, 20

iv
Masterpiece Cakeshop, Ltd. v. Colorado
Civil Rights Comm’n,
138 S. Ct. 1719 (2018) ............................................ 6
Obergefell v. Hodges,
576 U.S. 644 (2015) ...................................... passim
Pavan v. Smith,
137 S. Ct. 2075 (2017) ........................................ 5, 7
Rogers v. United States Dep’t of Health
and Human Servs.,
--- F. Supp. 3d ---, 2020 WL 4743162
(D.S.C. May 8, 2020) ...................................... 14, 20
Romer v. Evans,
517 U.S. 620 (1996) .............................................. 20
United States v. Windsor,
570 U.S. 744 (2013) ...................................... 5, 6, 20
Warren v. District of Columbia,
353 F.3d 36 (D.C. Cir. 2004) ................................ 15
Statutes & Regulations
Pa. Stat. § 2305.......................................................... 12
55 Pa. Code § 3700.4 ................................................. 12
55 Pa. Code § 3700.61 ............................................... 12
55 Pa. Code §§ 3700.62 - .69 ..................................... 12
55 Pa. Code § 3700.64 ............................................... 18
55 Pa. Code § 3700.64(b)(4) ....................................... 12

v
55 Pa. Code § 3700.72 ............................................... 12
55 Pa. Code § 3700.73 ............................................... 12
Other Authorities
Laura Baams, et al., LGBTQ Youth in
Unstable Housing and Foster Care,
143 Pediatrics 1 (2019),
https://tinyurl.com/y3l52287................................ 18
Frank J. Bewkes, et al., Center for
American Progress, Welcoming All
Families (Nov. 20, 2018),
https://tinyurl.com/ycltubn2 ................................ 16
Shoshana K. Goldberg & Kerith J.
Conron, The Williams Institute, How
Many Same-Sex Couples in the U.S.
are Raising Children? (July 2018),
https://tinyurl.com/y28mrspx .............................. 18
Tim Marcin, Nearly 20 Percent of
Americans Think Interracial
Marriage is ‘Morally Wrong,’ Poll
Finds, Newsweek (Mar. 14, 2018),
https://tinyurl.com/y69fr878 ................................ 10
Elizabeth Sepper, Gays in the Moralized
Marketplace, 7 Ala. C.R. & C.L. L.
Rev. 129 (2015) ..................................................... 16
Bianca D.M. Wilson, et al., Sexual and
Gender Minority Youth in Foster
Care (Aug. 2014),
https://tinyurl.com/yytw8aww ............................. 18

vi
Teresa Wiltz, Pew Charitable Trust, As
Need Grows, States Try to Entice
New Foster Parents (Mar. 1, 2019),
https://tinyurl.com/y5mj3vxw .............................. 17

INTEREST OF AMICUS CURIAE1
Amicus Lawrence Sager is a teacher and scholar
of constitutional law who specializes in the fields of
religious liberty and equality. He has taught and written in the field of constitutional law for approximately
fifty years, and he has been actively engaged with issues concerning religious liberty and equality for
twenty-five years. He submits this brief in the hope of
bringing to the attention of the Court an important
argument that, although raised below, has not figured
centrally in the briefs of the parties before this Court
or in the opinions of the courts below.2 Nor, so far as
he is aware, has it been made directly in the briefs of
any of the numerous other amici. He offers this argument to support an understanding and disposition of
this case that will best serve the Constitution.

Pursuant to this Court’s Rule 37.6, amicus states that no counsel for a party authored this brief in whole or in part and that no
person other than amicus or his counsel made a monetary contribution to its preparation or submission. The parties have consented to the filing of this brief.

1

The equal protection issue was raised by the City at the trial
level and addressed by the District Court, which said that the
City has “an interest in avoiding likely Equal Protection Clause
and Establishment Clause claims that would result if it allowed
its government contractors to * * * discriminat[e] against samesex-married couples.” Fulton v. City of Philadelphia, 320 F.
Supp. 3d 661, 685 (E.D. Pa. 2018); see also City of Philadelphia’s
Opp. to Mot. for TRO and Prelim. Injunction at 14, Fulton (No.
2:18-cv-2075), ECF No. 20. The issue was also raised in the City’s
briefing before the Third Circuit Court of Appeals. See Br. of Appellees at 46, Fulton v. City of Philadelphia, 922 F.3d 140 (3d Cir.
2019) (No. 18-2574), ECF No. #003113046443.
2

2
SUMMARY OF ARGUMENT
Suppose the City of Philadelphia (the City) maintained its contract with Catholic Social Services (CSS)
without any anti-discrimination provisions and that
CSS, acting on behalf of the City, continued to bar
same-sex couples from eligibility as foster care parents. The harm caused by this arrangement would
fall, heavily, on LGBTQ people. They would suffer an
affront to the equal dignity promised them by Obergefell v. Hodges, 576 U.S. 644, 681 (2015), a harm that
calls to mind the part of the Constitution that is most
concerned with avoiding discrimination against and
disrespect for vulnerable groups: the Equal Protection
Clause of the Fourteenth Amendment.
It is a curiosity of this case as it is presented to
the Court that discussion of the constitutional right of
same-sex couples to be treated as equals is not featured.3 The explanation for this may lie in part in the
posture of the case: Philadelphia moved proactively to
protect the rights of same-sex couples, and merely has
to defend itself against the constitutional claims advanced by CSS. It also may lie in the mistaken view
that because the discrimination against same-sex couples would come most proximately at the hands of
CSS—a private actor—equal protection would not be
implicated. But just as the City would be in flagrant
violation of the Equal Protection Clause if it were directly to exclude same-sex couples from eligibility as
foster care families, so too the City would violate the
Clause if it continued to deploy CSS to help discharge

As noted (see supra at n.2), the equal protection issue was raised
by the City at the District Court and Court of Appeals levels and
addressed by the District Court, although it is not discussed in
the Court of Appeals’ opinion.
3

3
the City’s responsibility for vetting foster care families, knowing that CSS was excluding same-sex couples.
If all or almost all foster care agencies with which
the City contracted excluded same-sex couples, the
City’s constitutional responsibility for the situation
would be obvious. The City would be choosing a foster
care arrangement that fully barred same-sex couples
from providing foster care. Such a practice must be
unconstitutional, because otherwise a unit of government could evade its obligations of equal treatment by
performing important governmental functions
through private entities that it could count on to discriminate in ways that the government itself could
not. Or a somewhat less sinister community could
avoid the costs of its equality obligations by discharging important governmental responsibilities carelessly, without regard for the discriminatory practices
of its private actors or for those practices’ consequences.
So Philadelphia plainly is constitutionally responsible for the conduct of the foster care agencies acting
on its behalf. The only question is whether the City
would violate the Constitution by allowing a patchwork of discrimination, with some agencies acting on
the City’s behalf serving everyone equally while others categorically exclude vulnerable groups. It should
be clear that such an arrangement would violate the
Constitution. To understand why, suppose that the
City were placing foster children without the involvement of private agencies by maintaining a network of
municipal offices where couples could apply to be foster parents. And imagine further that, in order to accommodate employees whose religion condemned

4
same-sex marriage, the City did not accept applications from same-sex couples in several of its offices.
This arrangement would surely be unconstitutional.
It would place upon a same-sex couple the special burden of finding an appropriate office—a burden that
might discourage the would-be parents from seeking
a foster placement altogether. The couple might find
itself in the wrong government office, seated at the
wrong desk, and be sent away because the officials in
that office condemned their marriage on religious
grounds. The City would be creating two classes of citizens: Same-sex couples who had to take care to
choose a child placement office where they would be
welcome, and everyone else, who would be welcome in
all offices. A shadow of disapproval would fall over all
same-sex couples who wanted to serve as foster parents.
Those are the circumstances that would have prevailed in Philadelphia without the City’s antidiscrimination policy. CSS was not the only agency that failed
to comply with the policy. Another agency, Bethany
Christian Services (Bethany), initially also refused to
consider same-sex married couples on religious
grounds, but it is now certifying such couples because
of the City’s requirement. Had this case not arisen,
Bethany might well have continued its prior practice.
Together, CSS and Bethany constitute a non-trivial
segment of foster care providers in the City, and they
might well be joined by others in excluding same-sex
couples in the absence of an equality rule. In other cities, foster care agencies that refuse to deal with samesex couples do predominate, and their refusal creates
significant barriers to foster parenting. The same
could come to be true in Philadelphia. The City did not
single out CSS in insisting on non-discrimination, and

5
it surely could not single CSS out for the special privilege of being entitled to discriminate while other religious foster care providers were not.
Same-sex couples in Philadelphia are entitled to
“civil marriage on the same terms and conditions,”
and to the same “rights, benefits, and responsibilities,” as opposite-sex couples. Obergefell, 576 U.S. at
670, 676; Pavan v. Smith, 137 S. Ct. 2075, 2078
(2017). They are entitled to be free from the stigma of
official acts that signal disapproval, Lawrence v.
Texas, 539 U.S. 558, 575–76 (2003)—to be free, that
is, from government practices that “impose a disadvantage, a separate status, and so a stigma.” United
States v. Windsor, 570 U.S. 744, 770 (2013). If the City
had elected to run its foster care placement process in
a way that permitted entities like CSS to close their
doors to same-sex couples on the grounds that they
were not suitable to care for foster children, it would
have frustrated Obergefell’s mandate. The City would
have been responsible for this loss of rights, both in
the sense that it would have caused the loss and in the
sense that it had violated the Constitution.
The City, of course, made no such election. It insisted that CSS, Bethany, and every other foster care
provider acting on behalf of the City agree not to discriminate. The City had a constitutional obligation to
ensure that same-sex couples were treated equally in
its foster care screening process, and it undertook to
do so. Now the City finds itself charged with violating
the Constitution precisely because it did what was
constitutionally required.
ARGUMENT
If the City had not proactively required CSS and
other agencies working on its behalf in the foster care

6
process to refrain from discrimination against samesex couples, the City would have violated the Constitution.
I. If the City did its own vetting of foster care
families, the Equal Protection Clause would
require that same-sex couples be given full,
open, and equal access as foster care family
applicants.
A. Same-sex couples and LGBTQ children
are constitutionally entitled to equal
treatment, free of disadvantage or
stigma.
This Court has made clear that members of the
LGBTQ community are entitled to “equal dignity in
the eyes of the law,” Obergefell, 576 U.S. at 681, and
that the Constitution insists that “exercise of their
freedom on terms equal to others * * * be given great
weight and respect.” Masterpiece Cakeshop, Ltd. v.
Colorado Civil Rights Comm’n, 138 S. Ct. 1719, 1727
(2018). They are entitled to be free from unequal burdens and from the stigma of official acts that signal
disapproval, Lawrence, 539 U.S. at 575–76—to be
free, that is, from provisions of law that “impose a disadvantage, a separate status, and so a stigma.” Windsor, 570 U.S. at 770. And nowhere do these propositions have more weight than in the domain of the
family and with regard to the interests of loving couples seeking the bond of marriage and a connection to
children.
Same-sex couples are entitled to marry, of course.
Obergefell, 576 U.S. at 681. But beyond that, they are
entitled to “civil marriage on the same terms and con-

7
ditions” and to the same “rights, benefits, and responsibilities” as opposite-sex couples. Obergefell, 576 U.S.
at 670, 676; Pavan, 137 S. Ct. at 2078.
Parenting and children figured importantly in
this Court’s decision in Obergefell. They were part of
the “related rights of child rearing, procreation, and
education,” invoked by the Court as undergirding “the
right to marry, establish a home and bring up children.” Obergefell, 576 U.S. at 667, 668 (internal quotation marks and citation omitted). Children were, in
other words, a reason why the right to marry was important for same-sex couples. But the Court was just
as concerned—arguably more concerned—with the
benefits that state recognition of same-sex marriage
would bring to children, conferring “recognition and
legal structure to their parents’ relationship.” 576
U.S. at 668. The Court considered, as well, the reciprocal benefits to children and same-sex couples of
adoption and foster care:
As all parties agree, many same-sex couples
provide loving and nurturing homes to their
children, whether biological or adopted. And
hundreds of thousands of children are presently being raised by such couples. Most
States have allowed gays and lesbians to
adopt, either as individuals or as couples, and
many adopted and foster children have samesex parents. This provides powerful confirmation from the law itself that gays and lesbians
can create loving, supportive families.
Ibid. (citations omitted).

8
B. If the City chose to do its own foster care
placement, any arrangement that targeted and disadvantaged same-sex couples plainly would be unconstitutional.
In light of these fundamental guarantees of equality, it would be unconstitutional for the City, as a response to religious objections to same-sex marriage, to
adopt a policy that barred same-sex couples from applying to be foster care parents. That would deny
same-sex couples precisely what Obergefell guaranteed them.
But suppose that the City instead maintained a
number of neighborhood foster care placement offices
staffed by City employees. And suppose further that,
because some of those employees had personal religious objections to same-sex marriage, the City
adopted a rule pursuant to which the applications of
same-sex couples would not be accepted in two of the
City’s offices, where those with religious objections to
same-sex marriage would make up the staff. That, too,
would violate the equal protection rights of same-sex
couples.
Under such a regime, same-sex couples would face
tangible harm in the form of increased search costs,
which can be decisive on the margins. A couple that
approached a government placement office and was
turned away might not be able to take additional time
off from work, or might lack the resources necessary
to pursue the matter further. Forcing that couple out
of the pool of prospective foster parents not only would
injure the prospective foster parents, but also would
deny an important benefit to the children who otherwise would have received crucial and loving parental
care from that couple.

9
Moreover, a policy of “pluralism” among neighborhood offices would entail intolerable dignitary and
symbolic harms. The City would be creating two classes of citizens: Same-sex couples who had to take care
to choose a child placement office where they would be
welcome; and everyone else, who would be welcome in
all offices. A shadow of disapproval would fall over
same-sex couples. And it is all too easy to imagine a
scenario in which two partners of the same sex mistakenly found themselves in the wrong office, seated
at the wrong desk, and being sent away because of the
religious beliefs of the officials in that office. The situation would be a far cry from one in which equal dignity prevailed.
The constitutional salience of these harms is well
captured by the Court’s concern for equal dignity in
the decisions that culminate in Obergefell. It is perhaps made more vivid still if we imagine that there
were municipal employees who objected to interracial
marriage on religious grounds.4 Suppose the City permitted two of its neighborhood offices to refuse to

The hypothetical is not unrealistic; it calls to mind bans on inter-racial marriage and the remarks of the trial judge in Loving
v. Virginia:
4

Almighty God created the races white, black, yellow, malay
and red, and he placed them on separate continents. And but
for the interference with his arrangement there would be no
cause for such marriages. The fact that he separated the races
shows that he did not intend for the races to mix.
Loving v. Virginia, 388 U.S. 1, 3 (1967); see also Bob Jones University v. United States, 461 U.S. 574, 605 (1983) (upholding revocation of religious institution’s tax-exempt status for maintaining a discriminatory anti-miscegenation policy, noting that
“[a]lthough a ban on intermarriage or interracial dating applies

10
serve interracial couples. That arrangement would
surely be unconstitutional. So too would be the arrangement considered here.
Courts have correctly recognized that a government office is not permitted to discriminate just because other available offices do not. As the Sixth Circuit explained in a related context, “that’s not
how constitutional rights work.” Ermold v. Davis, 936
F.3d 429, 436 (6th Cir. 2019). There, Kim Davis, a
county clerk in Kentucky, prohibited her office from
issuing marriage licenses in the wake of this Court’s
decision in Obergefell. Id. at 432. In the resulting litigation, Davis argued that Obergefell did not apply to
her because other Kentucky offices stood ready to issue marriage licenses to same-sex couples. But the
court rejected that claim: “Obergefell’s holding applies
not just to monolithic governmental entities like Kentucky,” id. at 436, but also to government offices on
the local level. Similarly here, the City may not take
a pluralist approach to foster care in which some agencies (such as CSS) adopt constitutionally prohibited
screening practices but others do not.

to all races, decisions of this Court firmly establish that discrimination on the basis of racial affiliation and association is a form
of racial discrimination”). Notably, a significant minority of
Americans continue to believe that interracial marriage is “morally wrong.” Tim Marcin, Nearly 20 Percent of Americans Think
Interracial Marriage is ‘Morally Wrong,’ Poll Finds, Newsweek
(Mar. 14, 2018), https://tinyurl.com/y69fr878.

11
II. Philadelphia may not permit a private
agency acting on its behalf to discriminate
in assisting the City with foster care services.
Ensuring the welfare of children is a government
responsibility and a characteristic government power.
Only the government can remove children from parents who are abusive or neglectful. Moreover, the government remains closely involved in the process of assuring adequate care for the child from that point
forward, so long as the child remains in the child welfare system. It has ultimate and, in key respects, exclusive authority over vulnerable children.
The City contracts with private agencies to help
with certain aspects of its responsibility for child welfare, and it is responsible for any discrimination it
knows them to be committing when they fulfill duties
that otherwise would be exercised by the City. After
all, those private agencies are acting on the City’s behalf. If the City were to allow them to exclude samesex couples from serving as foster parents, it would
violate the Equal Protection Clause.
A. Providing for the care of children who
are vulnerable to abuse or neglect is a
critical governmental responsibility of
the Commonwealth of Pennsylvania and
the City of Philadelphia.
Pennsylvania, like every other State, has the responsibility to ensure the well-being of abused and neglected children. State law mandates that local authorities—including the Department of Human
Services—“shall have the power, and for the purpose
of promoting the welfare of children and youth, it shall

12
be their duty to provide [various] child welfare services,” including “to provide in foster family
homes * * * adequate substitute care for any child in
need of such care.” 62 Pa. Stat. § 2305.
In turn, Pennsylvania regulations allow government to delegate authority “to inspect and approve
foster families to an approved FFCA,” which is a “public or private agency which recruits, approves, supervises and places children with foster families.” 55 Pa.
Code §§ 3700.4, 3700.61. Although FFCAs are
charged with the responsibility of “certifying” applicants as appropriate foster families, no certification is
final until it is approved by the government. See, e.g.,
JA 83-85. At the same time, the State determines
what factors will be considered when FFCAs place
children (see, e.g., 55 Pa. Code § 3700.64(b)(4)); its regulations strictly govern FFCAs’ oversight of foster
families (id. §§ 3700.62-.69); and FFCAs’ approval of
foster families and relocation of children is subject to
appeal to the State (id. §§ 3700.72, 3700.73).
The City enters into contracts that award public
funds to FFCAs in exchange for the FFCAs providing
the foster care services in accord with these state
guidelines. The City’s contract with CSS, as was typical, required that CSS comply with all applicable laws
and departmental manuals governing their services,
provide regular reports to the City, and obtain appropriate certifications from applicants. JA 563, 578, 58486, 594-95, 596-97.

13
B. When the City delegates part of its foster
care process to private agencies, it retains full constitutional responsibility
for that process.
The constitutional landscape confronting the City
when it learned that two of its foster care placement
providers were discriminating against same-sex couples by flatly refusing to approve them as foster parents was one that made that discrimination especially
worrisome. The same-sex couples who were victims of
that discrimination were plainly entitled to equal
treatment under the Equal Protection Clause, above
all with regard to matters of family and child-rearing,
and that was precisely what they were being denied.
CSS and Bethany were not acting on their own, but on
behalf of the City, discharging its responsibility to
care for vulnerable children. Were the City to have
simply stood by, it would be constitutionally responsible.
To see this clearly, suppose that CSS and Bethany
were the only FFCAs in Philadelphia, or that all the
FFCAs were committed to the policy of excluding
same-sex couples from eligibility as foster parents.
These couples would be completely denied the opportunity to provide foster care in the City. Were Philadelphia doing its own foster placement of vulnerable
children, such a policy would be in flagrant violation
of Obergefell and the equal protection principles upon
which Obergefell rests. See supra Section I.B. And
surely, Philadelphia could not leave its constitutional
obligation of equal treatment behind by delegating its
foster-placement responsibilities to a cohort of FFCAs,

14
all of which it knew would bar access to same-sex couples.5
The constitutional logic of the situation has been
observed and followed by courts in the analogous situation where prisoners have been given medical care
so shoddy as to violate the Eight Amendment, but the
state has entrusted the medical care of prisoners—or
complete responsibility for the incarceration of prisoners—to a private entity. In such cases, courts have recognized that if a state stands by despite knowing of
policies that result in unconscionably inadequate
medical care, it bears full responsibility for the constitutional violation. Judge Wood, writing for the Seventh Circuit in such a case, explained that “[t]he
County cannot shield itself from § 1983 liability [for
violation of the Eighth Amendment] by contracting
out its duty to provide medical services. * * * If the
County is faced with actual or constructive knowledge
that its agents will probably violate constitutional
rights, [the County] may not adopt a policy of inaction.” King v. Kramer, 680 F.3d 1013, 1020, 1021 (7th
Indeed, in other areas of the country, providers that discriminate against same-sex couples predominate—if not monopolize—
the market for screening potential foster-care families. See
Marouf v. Azar, 391 F. Supp. 3d 23, 28 (D.D.C. 2019) (noting that
apart from Catholic Charities, which excludes same-sex couples,
“no other child welfare organizations in the Fort Worth area” had
agreements to provide child placement services for unaccompanied refugee children); Rogers v. United States Dep’t of Health
and Human Servs., --- F. Supp. 3d ---, 2020 WL 4743162, at *8
(D.S.C. May 8, 2020) (noting that placement agency that discriminates against same-sex couples and families that are not evangelical Christian “recruits fifteen percent of the foster families in
South Carolina”); id. at *3 (noting that the agency “is the largest
CPA in both the state and the upstate South Carolina region”).
5

15
Cir. 2012) (internal quotation marks and citation
omitted).
The D.C. Circuit similarly found liability on the
part of the District of Columbia for constitutional violations in a private prison. “Deliberate indifference,”
the court wrote, “is determined by analyzing whether
the municipality knew or should have known of the
risk of constitutional violations, but did not act.” Warren v. District of Columbia, 353 F.3d 36, 39 (D.C. Cir.
2004) (internal quotation marks omitted). Likewise,
in one of the earliest and most influential of these decisions involving a private medical services provider,
the Eleventh Circuit held that “the county itself remains liable for any constitutional deprivations
caused by the policies and customs of the [private provider].” Ancata v. Prison Health Servs., Inc., 769 F.2d
700, 705 (11th Cir. 1985).
These decisions hold that the state is liable when
it stands by, knowing that private parties acting on its
behalf are departing from the requirement of the Constitution. Here, the City learned that two of its
FFCAs, engaged in certifying couples and individuals
for foster care placement on the City’s behalf, were
discriminating against same-sex couples. Under these
circumstances, the City would correctly understand
itself to be constitutionally responsible for the conduct
of CSS and Bethany and for the patchwork of discrimination and fair treatment that was its result. It remains to be observed that this patchwork would be
deeply inconsistent with the equal dignity of same-sex
married couples and the welfare of LGBTQ children.

16
C. The harms to same-sex couples and
LGBTQ children that would follow from
granting CSS and other providers license to discriminate are precisely those
against which the Equal Protection
Clause is directed.
The Equal Protection Clause is designed to prevent persons from suffering the material and expressive harm attendant on unequal status. Were the City
to stand by and permit some of its foster care agencies
to categorically exclude same-sex couples as potential
foster parents, LGBTQ parents and children alike
would bear both material and dignitary harms. Those
harms, in salient respects, would resemble those considered earlier in addressing what would happen if
the City maintained its own network of foster-care
placement offices and flatly refused to accept samesex applicants in several of those offices.
Beginning with tangible costs, prospective parents who were LGBTQ would have to spend more time
and resources to find an accepting agency. Some
might be deterred from serving as foster parents altogether. See Elizabeth Sepper, Gays in the Moralized
Marketplace, 7 Ala. C.R. & C.L. L. Rev. 129, 156
(2015) (arguing that LGBTQ citizens who face barriers in the marketplace suffer tangible harm in the
form of increased search costs). Depriving same-sex
couples access to equal consideration for service as
foster parents not only injures those potential applicants, but also frustrates the entire purpose of the
government’s foster care program. See Frank J.
Bewkes, et al., Center for American Progress, Welcoming All Families, (Nov. 20, 2018), https://ti-

17
nyurl.com/ycltubn2 (“Same-sex couples raising children are seven times more likely to be raising a foster
child . . . than their different-sex counterparts.”).
In addition to those tangible burdens, profound
dignitary harms are imposed by a government that allows its foster care agencies to exclude whole categories of parents on the basis of suspect classifications.
A same-sex couple that mistakenly submits its application to CSS or Bethany, as opposed to a non-discriminatory FFCA, only to be sent away because of the religious beliefs of the individuals working in that office,
would suffer those harms even though other offices
would have given them fair consideration. Indeed,
through operation of the process, the government
would have signaled its willingness to be identified
with the discriminatory conduct of agencies to which
it delegated the public function of certifying prospective foster-care parents. The inevitable result would
be to cast a shadow of disgrace and disapproval over
same-sex couples. See Obergefell, 576 U.S. at 681
(“They ask for equal dignity in the eyes of the law. The
Constitution grants them that right.”).
Equally important, such government-condoned
discrimination would visit harm on foster children as
well. With the number of foster children in the U.S.
consistently exceeding the number of prospective foster parents,6 and same-sex couples disproportionately

See Teresa Wiltz, Pew Charitable Trust, As Need Grows, States
Try to Entice New Foster Parents (Mar. 1, 2019), https://tinyurl.com/y5mj3vxw (explaining that “there are more children
who need foster care, and not enough families to provide it”).

6

18
serving as foster parents,7 policies that in practice
would frustrate that participation leave fewer loving
homes to care for foster children.
And the harms suffered by LGBTQ foster children
would be particularly pronounced. Although data is
sparse, studies show that between 19% and 30% of foster children identify as LGBTQ.8 Policies that refuse
to consider otherwise-eligible same-sex families limit
opportunities for LGBTQ youth to be placed into accepting homes. As Pennsylvania’s laws explicitly contemplate, placements must consider the “characteristics of foster children best suited to the foster family.”
55 Pa. Code § 3700.64.
Those are the circumstances that would have prevailed in Philadelphia without the City’s antidiscrimination policy, and might again prevail if that policy
is set aside. Absent the policy, at least two agencies—
CSS and Bethany—would have excluded same-sex
couples. Together, those agencies constitute a nontrivial segment of foster care providers in the City,
and they might be joined by others in the absence of
an equality rule. That prospect is not illusory. In other
cities, foster care agencies that refuse to deal with
same-sex couples do predominate, and they constitute
significant barriers to foster parenting. The same
could come to be true in Philadelphia. The City did not
single out CSS in insisting on nondiscrimination, and
Shoshana K. Goldberg & Kerith J. Conron, The Williams Institute, How Many Same-Sex Couples in the U.S. are Raising Children?, (July 2018), https://tinyurl.com/y28mrspx.
7

See Laura Baams, et al., LGBTQ Youth in Unstable Housing
and Foster Care, 143 Pediatrics 1, 4 (2019), https://tinyurl.com/y3l52287; Bianca D.M. Wilson, et al., Sexual and Gender Minority Youth in Foster Care (Aug. 2014), https://tinyurl.com/yytw8aww.
8

19
it surely could not single out CSS for the special privilege of being entitled to discriminate while other religious foster care providers could not.
Three lower courts have already recognized that
policies similar to those demanded by petitioners in
this case raise serious constitutional questions, and
they have indicated that governments face substantial challenges under the Equal Protection Clause
when they permit foster care agencies to refuse to consider same-sex couples.
In Dumont v. Lyon, 341 F. Supp. 3d 706, 713 (E.D.
Mich. 2018), the court found that prospective adoptive
same-sex couples and individuals plausibly alleged
equal protection violations against state officials for
“permitting state-contracted and taxpayer-funded
child placing agencies” to refuse to process their adoption applications on the basis of religious objections to
their sexual orientation. The state officers could not
escape potential liability simply on the ground that
the immediate cause of exclusion from the program
was the action of private providers. Id. at 744 (“Plaintiffs allege that ‘the State caused [their] injuries by
authorizing and failing to prevent the agencies’ discrimination in the performance of State contracts.”).
It was the state’s decision to contract with private parties that discriminated on the basis of sexual orientation that was plausibly alleged to violate the Constitution. Id. at 745–47.9

Following the district court’s decision in Dumont, Michigan settled the lawsuit and agreed to enforce nondiscrimination policies
on the basis of sexual orientation against faith-based foster care
agencies with government contracts. See Buck v. Gordon, 959
F.3d 219, 220–23 (6th Cir. 2020) (detailing procedural history in
9

20
The federal government faces similar concerns. In
Rogers v. U.S. Department of Health & Human Services, 2020 WL 4743162, at *16, the district court
ruled that prospective foster parents plausibly alleged
that both South Carolina and federal officials violated
the Equal Protection Clause by exempting a childplacement agency from state and federal non-discrimination policies and regulations. Likewise, in Marouf,
391 F. Supp. 3d at 34, the district court expressed significant skepticism that federal agencies could award
grants to, and form contracts with, child welfare organizations to provide foster-care placement services
for unaccompanied refugees despite knowing that
those organizations would exclude same-sex couples
from serving as foster-care families.
Although Dumont, Rogers, and Marouf concerned
only preliminary orders, they show that respondents’
insistence on nondiscriminatory consideration of foster-parent applications avoids significant Equal Protection Clause challenges. The City forestalled a real
constitutional risk by acting proactively to ensure that
prospective foster families are not subject to invidious
discrimination within its child welfare system.
****
Nearly twenty-five years ago, in Romer v. Evans,
517 U.S. 620 (1996), this Court declared that “the
principle that government and each of its parts remain open on impartial terms to all who seek its assistance” is “[c]entral * * * to our Constitution’s guarantee of equal protection.” 517 U.S. at 633. So too is
the principle that the government must give fair consideration to all who seek to provide it assistance on
subsequent litigation stayed until this Court’s resolution of the
instant case).

21
behalf of the common good. The City could not permit
its foster-care program to operate in such a way that
the “practical effect” would be “to impose a disadvantage, a separate status, and so a stigma upon all
who enter into same-sex marriages.” Windsor, 570
U.S. at 770.
CONCLUSION
The decision of the Third Circuit should be affirmed.
Respectfully submitted,
LAWRENCE G. SAGER
ALICE JANE DRYSDALE
SHEFFIELD REGENTS CHAIR
UNIVERSITY OF TEXAS SCHOOL
OF LAW
727 E. Dean Keeton Street
Austin, Texas 78705

AUGUST 2020

CHARLES A. ROTHFELD

Counsel of Record
DANIEL D. QUEEN
C. MITCHELL HENDY
KATHLEEN S. MESSINGER
MAYER BROWN LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
crothfeld@mayerbrown.com

